No. 20A___
IN THE SUPREME COURT OF THE UNITED STATES
NATIONAL COLLEGIATE ATHLETIC ASSOCIATION ET AL.,

Applicants,
v.
SHAWNE ALSTON ET AL.,

Respondents.
APPLICATION TO STAY ISSUANCE OF THE
MANDATE OF THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT PENDING
THE FILING AND DISPOSITION OF A PETITION
FOR A WRIT OF CERTIORARI AND REQUEST
FOR AN ADMINISTRATIVE STAY

SETH P. WAXMAN
Counsel of Record
WILMER CUTLER PICKERING
HALE & DORR LLP
1875 Pennsylvania Avenue N.W.
Washington, D.C. 20006
(202) 663-6000
seth.waxman@wilmerhale.com

Counsel for the NCAA
(filed on behalf of and with the consent
of counsel for all defendants)

PARTIES TO THE PROCEEDING
Applicants (defendants-appellants-cross-appellees in the court of appeals) are the
National Collegiate Athletic Association and eleven of its member conferences: the
American Athletic Conference; the Atlantic Coast Conference; The Big Ten Conference,
Inc.; The Big 12 Conference, Inc.; Conference USA; the Mid-American Conference; the
Mountain West Conference; the Pac-12 Conference; the Southeastern Conference; the
Sun Belt Conference; and the Western Athletic Conference.
Respondents (plaintiffs-appellees-cross-appellants in the court of appeals) are
Shawne Alston; Don Banks; Duane Bennett; John Bohannon; Barry Brunetti; India
Chaney; Chris Davenport; Dax Dellenbach; Sharrif Floyd; Kendall Gregory-McGhee;
Justine Hartman; Nigel Hayes; Ashley Holliday; Dalenta Jameral Stephens; Alec
James; Afure Jemerigbe; Martin Jenkins; Kenyata Johnson; Nicholas Kindler; Alex
Lauricella; Johnathan Moore; Kevin Perry; Anfornee Stewart; Chris Stone; Kyle
Theret; Michel’le Thomas; Kendall Timmons; and William Tyndall.

-i-

No. 20A___
IN THE SUPREME COURT OF THE UNITED STATES
NATIONAL COLLEGIATE ATHLETIC ASSOCIATION, ET AL.,

Applicants,
v.
SHAWNE ALSTON, ET AL.,

Respondents.
APPLICATION FOR STAY OF THE MANDATE
OF THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT (OR, IN THE
ALTERNATIVE, FOR A STAY OF THE DISTRICT
COURT’S INJUNCTION) PENDING THE
FILING AND DISPOSITION OF A PETITION
FOR A WRIT OF CERTIORARI, AND REQUEST
FOR AN ADMINISTRATIVE STAY

To the Honorable Elena Kagan, Associate Justice of the Supreme Court of the
United States and Circuit Justice for the Ninth Circuit:
Pursuant to this Court’s Rule 23, applicants------the National Collegiate Athletic
Association (‘‘NCAA’’) and the eleven member conferences listed in footnote 1
(collectively, ‘‘defendants’’)------respectfully apply for a stay of the issuance of the mandate
of the United States Court of Appeals for the Ninth Circuit, pending the timely filing
and disposition of defendants’ forthcoming petition for a writ of certiorari and any
further proceedings in this Court. The Ninth Circuit’s mandate is currently scheduled
to issue on August 11. Alternatively, defendants suggest that the Court treat this
application as a petition for a writ of certiorari and grant the writ. See Nken v.

Mukasey, 555 U.S. 1042 (2008). Finally, defendants request an administrative stay
while the Court considers this application.1
INTRODUCTION
In NCAA v. Board of Regents of University of Oklahoma, 468 U.S. 85 (1984), this
Court recognized that NCAA rules regarding the eligibility of college students to
participate in intercollegiate athletics------including the rule that ‘‘athletes must not be
paid,’’ id. at 102------are ‘‘entirely consistent’’ with federal antitrust law because they
differentiate college from professional sports, thus ‘‘widen[ing] consumer choice,’’ id. at
102, 120. This Court thus declared that ‘‘[t]here can be no question but that [the
NCAA] needs ample latitude to play’’ its ‘‘critical role in the maintenance of a revered
tradition of amateurism in college sports.’’ Id. at 120. Heeding this Court’s admonition,
several circuits have concluded that NCAA rules that are designed to preserve the
amateur status of NCAA athletes should be upheld against antitrust challenge at the
motion-to-dismiss stage. See, e.g., Deppe v. NCAA, 893 F.3d 498, 503 (7th Cir. 2018);

Smith v. NCAA, 139 F.3d 180, 186-187 (3d Cir. 1998), vacated on other grounds, 525
U.S. 459, 464 n.2 (1999); McCormack v. NCAA, 845 F.2d 1338, 1343-1345 (5th Cir. 1988).
The Ninth Circuit has taken a starkly different approach. First, it has brushed
aside Board of Regents’ core reasoning as ‘‘dicta.’’ Second, it has subjected NCAA rules
that are designed to prevent student-athletes from being paid for their intercollegiate

1

The applicant member conferences are the American Athletic Conference; the

Atlantic Coast Conference; The Big Ten Conference, Inc.; The Big 12 Conference, Inc.;
Conference USA; the Mid-American Conference; the Mountain West Conference; the
Pac-12 Conference; the Southeastern Conference; the Sun Belt Conference; and the
Western Athletic Conference.

-2-

play to detailed rule-of-reason scrutiny (including a full trial). Third, it has held that the
NCAA’s longstanding conception of amateurism------the one endorsed in Board of

Regents------is unnecessarily restrictive because the district court conceived a ‘‘narrower’’
alternative conception. And fourth, it has upheld an injunction that replaced the
longstanding conception with that ‘‘narrower’’ one, namely, the wholly invented notion
that the real difference between college and professional athletes is that only the latter
are paid unlimited amounts of money unrelated to education, i.e., that college athletes
would be amateurs even if they were paid unlimited amounts, so long as the payments
are somehow (or can be described as somehow) ‘‘related to education.’’ The injunction
the Ninth Circuit upheld thereby effectively created a pay-for-play system for all
student-athletes, allowing them to be paid both ‘‘unlimited’’ amounts for participating in
‘‘internships,’’ and an additional $5,600 (or more) each in annual ‘‘academic and
graduation awards,’’ which student-athletes can receive merely for remaining eligible to
play their sport. That is quintessential judicial micromanagement, lacking any sound
basis in antitrust law, and will unquestionably turn student-athletes into professionals,
ending a century-long tradition of amateurism in college sports.
The Ninth Circuit started down this wrong path five years ago, in O’Bannon v.

NCAA, 802 F.3d 1049 (9th Cir. 2015). There, a class of football and basketball players
claimed that the NCAA’s eligibility rules restricting student-athlete compensation
violated section 1 of the Sherman Act by preventing the class members from being paid
for the use of their names, images, and likenesses. Rejecting the NCAA’s reliance on

Board of Regents and the decisions of other circuits, the Ninth Circuit held that NCAA
rules restricting the compensation that student-athletes may receive for their play are

-3-

subject to detailed rule-of-reason analysis based on a trial record. See id. at 1061-1064.
Even so, the court recognized that the NCAA’s commitment to amateurism is
procompetitive because it differentiates college from professional sports, and that
NCAA rules capping payments to student-athletes at the legitimate cost of attending
school serve that procompetitive goal. See id. at 1072-1079. Antitrust law, the court
decreed, ‘‘does not require more.’’ Id. at 1079.
In this case------brought by classes of student-athletes that substantially overlap
with the O’Bannon class to challenge the same NCAA rules at issue in O’Bannon------the
Ninth Circuit intruded much further into the NCAA’s ‘‘critical role in the maintenance
of a revered tradition of amateurism in college sports,’’ Board of Regents, 468 U.S. at
120. Jettisoning O’Bannon’s rule-of-reason analysis in favor of the new trial record, the
court held that the NCAA’s longstanding conception of amateurism (that athletes ‘‘must
not be paid’’ to play, id. at 102) is too restrictive, and replaced it with a new, ‘‘much
narrower conception …: Not paying student-athletes unlimited payments unrelated to
education.’’ In re National Collegiate Athletic Ass’n Athletic Grant-in-Aid Cap

Antitrust Litigation (‘‘GIA’’), 958 F.3d 1239, 1258 (9th Cir. 2020). The court thus upheld
the district court’s permanent injunction, which as noted requires the NCAA to allow

every student-athlete to be paid unlimited amounts of cash for ‘‘internships,’’ as well as
$5,600 per year in academic ‘‘awards’’ for nothing more than meeting the general
minimum academic eligibility requirements (an amount set by the district court to equal
the theoretical limit on the value of awards that the single most outstanding studentathlete could receive in recognition of his or her genuine athletic achievements).

-4-

Both the result reached by the Ninth Circuit and the court’s approach to
evaluating the NCAA’s rules restricting student-athlete compensation under the rule of
reason------each of which, as noted, departs from decisions of other circuits------will cause
immediate, lasting damage to intercollegiate athletics and the millions of people who
participate in or enjoy watching them. Allowing schools to pay student-athletes vast
sums on the pretense that they are for an ‘‘internship’’ that is somehow ‘‘related to
education,’’ or that they are ‘‘awards’’ recognizing the supposed academic
accomplishment of simply remaining academically eligible to participate will eradicate
the distinction between college and professional athletes, causing many consumers to
lose interest as college sports are perceived as just another minor league. It will also
distort intercollegiate competition and diminish opportunities for participation in intercollegiate athletics for years to come, even if the decision below is eventually reversed.
And the Ninth Circuit’s decision will subject the NCAA’s amateurism rules to endless
demanding antitrust scrutiny, with plaintiffs afforded as many tries as they need to
develop a record that persuades a district judge in California and then the Ninth
Circuit. See GIA, 958 F.3d at 1256 n.13 (endorsing the prospect of ‘‘future plaintiffs
pursuing essentially the same claim again and again’’ against defendants). Indeed, a
new suit virtually identical to O’Bannon has already commenced. Instead of affording
the NCAA the wide latitude it needs------and that Board of Regents directs lower courts
to provide------the Ninth Circuit’s decision vests in plaintiffs’ lawyers and the courts the
power to define (and redefine) the ‘‘character and quality’’ of college sports. 468 U.S. at
102.

-5-

The NCAA and the member conferences who are defendants in this case will
petition this Court for certiorari to resolve the circuit conflict and correct the Ninth
Circuit’s errors. But the Ninth Circuit declined to stay the issuance of its mandate
pending the filing and disposition of that petition, so a stay from this Court is needed
now to prevent the Ninth Circuit’s decision from taking effect and inflicting profound,
irreparable harm on the important national institution of intercollegiate athletics.
STATEMENT
1.

‘‘Since its inception in 1905, the NCAA has played an important role in the

regulation of amateur collegiate sports.’’ NCAA v. Board of Regents of University of

Oklahoma, 468 U.S. 85, 88 (1984) (‘‘Board of Regents’’). Today, NCAA athletics is a
major feature of American life: Each year, nearly half a million student-athletes play
two dozen sports on nearly 20,000 teams at about 1,100 NCAA member schools and 100
member conferences in three divisions across the country. NCAA, What Is The

NCAA?, https://tinyurl.com/y4kpswnl; C.A. ER8. And each year, millions of college
students, alumni, faculty, and other fans watch NCAA competitions, including March
Madness (the NCAA’s annual post-season basketball tournaments) and football bowl
games, either in person or through regional and national broadcasts.
For decades, a hallmark of intercollegiate athletics has been what this Court has
called ‘‘a revered tradition of amateurism,’’ a tradition that ‘‘adds richness and diversity
to intercollegiate athletics.’’ Board of Regents, 468 U.S. at 120. Amateurism is------and
has long been------a core component of an effort by the NCAA and its member schools and
conferences to ‘‘maintain intercollegiate athletics as an integral part of the[ir]
educational program[s].’’ C.A. ER274. As part of this effort, the NCAA has long had a

-6-

body of rules specifying not only the terms of competition but also eligibility
requirements for participants. These eligibility requirements------which address academic
standards, recruiting, scholarships, awards, payments, representation by agents, draft
entry, and more, C.A. ER272-273------embody two fundamental principles: Intercollegiate
athletes must be students at the school for which they play and must be amateurs, i.e.,
not be paid for their athletic play. C.A. ER275-276, ER280-283. This Court has
recognized these principles, explaining that ‘‘[i]n order to preserve the character and
quality of [NCAA athletics], athletes must not be paid, must be required to attend class,
and the like.’’ Board of Regents, 468 U.S. at 102. By tying college sports to the
scholastic experience, amateurism preserves a ‘‘clear line of demarcation between
intercollegiate athletics and professional sports.’’ C.A. ER274.
Although the principle of amateurism does not permit college athletes to be paid
for their athletic play, it has long permitted them to receive reimbursement of their
reasonable and necessary academic or athletic-related expenses (tuition, books,
uniforms, athletic travel, etc.), i.e., the expenses they incur in order to be studentathletes. See, e.g., C.A. ER284-287, 290-295; C.A. ER638-639; C.A. ER1422-1440. It
has also long allowed them to receive limited awards to recognize academic or athletic
achievement by themselves or their teams.
As to the former category, the primary (although not complete) measure of
legitimate educational expenses is ‘‘cost of attendance,’’ or COA, a federally defined
standard. See 20 U.S.C. §1087kk. COA encompasses tuition and fees (including
required supplies and equipment), room and board, books, a computer, transportation,

-7-

and miscellaneous expenses. Id. §1087ll. Each school independently determines the
exact cost of attendance for its students. C.A. ER324.
NCAA rules allow student-athletes to receive financial aid from their schools up
to COA and (consistent with federal law, see 20 U.S.C. §1087tt), allow schools to
‘‘adjust[]’’ COA for student-athletes ‘‘on an individual basis.’’ C.A. ER285. This aid may
be provided through an athletic scholarship------known as a ‘‘grant-in-aid,’’ or GIA------other
financial aid, or both. C.A. ER284, 286-287. NCAA rules also allow schools to cover
additional, often unexpected, educational expenses of student-athletes (tutoring,
clothing, and travel for a family emergency, for example) through two dedicated funds,
the Student Assistance Fund, or SAF, and the Academic Enhancement Fund, or AEF.
C.A. ER268-269, ER284-285, 294-295. Lastly, NCAA rules permit student-athletes to
receive Pell grants, which are given by the federal government to students who have
exceptional need. C.A. ER287; U.S. Department of Education, Federal Student Aid
Office, Federal Pell Grants Are Usually Awarded Only to Undergraduate Students,
https://studentaid.gov/understand-aid/types/grants/pell/.
As for awards to recognize achievement by an individual athlete or team, they
are limited to modest non-cash amounts for genuine achievement. For example,
student-athletes may receive an award valued at $175 or less for being a team’s mostimproved or most-valuable player; an award valued at $550 or less for participating in
an all-star or post-season bowl game; and a trophy valued at $1,500 or less for being a
conference’s ‘‘athlete of the year’’ or ‘‘scholar-athlete of the year.’’ C.A. ER 288-289,
ER296-297. Additionally, each school may annually give a $10,000 Senior Scholar
Award to two graduating student-athletes to use toward graduate school. C.A. ER289.

-8-

The restrictions on awards are designed to ensure that awards do not become vehicles
for disguised pay-for-play. C.A. ER170-171; ER158-164; ER229-230.
2.

In Board of Regents, this Court held that because agreement among the

NCAA’s member schools and conferences is ‘‘essential if [NCAA sports are] to be
available at all,’’ NCAA restraints would be evaluated under the rule of reason, rather
than deemed illegal per se for purposes of an antitrust claim under section 1 of the
Sherman Act. 468 U.S. at 100-101. The rule of reason generally entails the following
‘‘three-step, burden-shifting framework’’: (1) if the plaintiff ‘‘prove[s] that the
challenged restraint has a substantial anticompetitive effect that harms consumers in
the relevant market,’’ then (2) the burden shifts to the defendant to show a
procompetitive rationale for the restraint’’; if the defendant does so, then (3) ‘‘the
burden shifts back to the plaintiff to demonstrate that the procompetitive efficiencies
could be reasonably achieved through less anticompetitive means.’’ Ohio v. American

Express Co., 138 S. Ct. 2274, 2284 (2018).
Applying the rule of reason, this Court held in Board of Regents that the NCAA
television plan challenged in that case was unlawful. 468 U.S. at 104-117. In doing so,
the Court expressly distinguished the plan from ‘‘most’’ NCAA rules------which the Court
said it is ‘‘reasonable to assume … are justifiable means of fostering competition among
amateur athletic teams.’’ Id. at 117. In particular, the Court explained that the
NCAA’s ‘‘standards of amateurism’’ and ‘‘standards for academic eligibility,’’ id. at 88-----such as the rules that ‘‘athletes must not be paid’’ and ‘‘must be required to attend
class,’’ id. at 102------preserve the character and quality of’’ intercollegiate athletics, id.,
and therefore are ‘‘entirely consistent’’ with antitrust law, id. at 120. That is because

-9-

the NCAA’s eligibility rules ‘‘enable[] a product to be marketed which might otherwise
be unavailable,’’ thereby ‘‘widen[ing] consumer choice------not only the choices available to
sports fans but also those available to athletes.’’ Id. at 102. As a result, the Court
explained, the rules ‘‘can be viewed as procompetitive.’’ Id.
For decades after Board of Regents, the courts of appeals consistently applied
that decision to hold that NCAA eligibility rules that require student-athletes to be
amateurs, i.e., not to be paid to play, are valid under antitrust law. See, e.g., Agnew v.

NCAA, 683 F.3d 328, 341, 343 n.7 (7th Cir. 2012); Smith, 139 F.3d at 186-187;
McCormack, 845 F.2d at 1343-1345. Indeed, these courts held that such rules------those
that ‘‘define what it means to be an amateur’’------should be sustained ‘‘at the motion-todismiss stage,’’ i.e., without detailed analysis under the rule of reason. Agnew, 683 F.3d
at 341, 343; accord Smith, 139 F.3d at 186-187 (NCAA eligibility rule ‘‘so clearly
survives a rule of reason analysis’’ that the court did ‘‘not hesitate’’ to uphold it on a
motion to dismiss).
In 2015, however, the Ninth Circuit began unsettling this profoundly important
judicial appreciation of the procompetitive value of the NCAA’s commitment to
amateurism. In O’Bannon v. NCAA, 802 F.3d 1049 (9th Cir. 2015), a class of current
and former NCAA Division I football and men’s basketball players claimed that NCAA
rules restricting student-athlete compensation violated Section 1 of the Sherman Act by
precluding student-athletes from being paid for the use of their name, image, or likeness
(‘‘NIL’’), see id. at 1052. After conducting a bench trial, the district court agreed and
issued a two-part injunction, requiring the NCAA to allow schools to provide each
student-athlete with (1) a ‘‘stipend’’ up to COA to cover the gap between the then-

- 10 -

exiting limit on GIA (i.e., athletic scholarships) and COA (a gap that consisted primarily
of ‘‘miscellaneous personal expenses,’’ 20 U.S.C. §1087ll(2)), and (2) up to $5,000 annually
in additional compensation that would be held in trust until after college. Id. at 10521053, 1054 n.3, 1061; see also O’Bannon v. NCAA, 7 F. Supp. 3d 955, 974, 977, 982-983,
1005 (N.D. Cal. 2014). As the Ninth Circuit in O’Bannon observed, the district court’s
ruling was ‘‘the first by any federal court to hold that any aspect of the NCAA’s
amateurism rules violate the antitrust laws, let alone to mandate by injunction that the
NCAA change its practices.’’ 802 F.3d at 1053.
On appeal, the Ninth Circuit affirmed the first part of the district court’s
injunction but reversed the second part. Expressly disagreeing with the contrary view
just discussed, see 802 F.3d at 1064, the court of appeals first held that all NCAA rules,
even those facially designed to promote amateurism by barring student-athletes from
being paid for their intercollegiate athletic play, are subject to detailed rule-of-reason
analysis. 802 F.3d at 1063-1064. And then, in a further departure from other circuits,
the court held that such detailed analysis yielded the conclusion that the challenged
rules were unlawful in part.
More specifically, the court first agreed with the NCAA that, at step 2 of the rule
of reason, NCAA compensation rules are procompetitive because they help ‘‘preserv[e]
the popularity of the NCAA’s product by promoting its current understanding of
amateurism.’’ 802 F.3d at 1073. And at step 3, the court (again agreeing with the
NCAA) held that the district court had ‘‘clearly erred’’ in requiring the NCAA to allow
additional annual payments of $5,000 above COA. Id. at 1074, 1076. Such payments, the
court explained, were not ‘‘equally effective in promoting amateurism and preserving

- 11 -

consumer demand’’ as the NCAA’s compensation restrictions. Id. at 1076. And the
district court had ‘‘ignored that not paying student-athletes is precisely what makes

them amateurs.’’ Id. Hence, offering even ‘‘small payments’’ above COA that are
unrelated to legitimate expenses, the court concluded, would be ‘‘a quantum leap.’’ Id.
at 1078. But the court upheld the district court’s conclusion that the NCAA’s
restriction on athletic scholarships below COA------i.e., the then-existing gap between
GIA and COA------was ‘‘patently and inexplicably stricter than is necessary to accomplish
all of its procompetitive objectives.’’ Id. at 1075. That was so, the court stated, because
‘‘by the NCAA’s own standards, student-athletes remain amateurs as long as any
money paid to them goes to cover legitimate educational expenses,’’ which includes the
expenses counted toward COA. Id.2
Summing up its decision, the court stated that antitrust law ‘‘requires that the
NCAA permit its schools to provide up to the cost of attendance to their studentathletes. It does not require more.’’ 802 F.3d at 1079.3
The NCAA petitioned for certiorari, which this Court denied. NCAA v.

O’Bannon, 137 S. Ct. 277 (2016) (mem.).
3.

While O’Bannon was pending, NCAA Division I football players and men’s

and women’s basketball players filed this class action------on behalf of classes that largely

2

Roughly a year before the Ninth Circuit’s decision, the NCAA changed its rules to
increase the GIA cap to COA, thereby eliminating the only restraint that O’Bannon
invalidated.
3

One member of the panel dissented in part, stating that he would have upheld the
district court’s judgment in its entirety. See 802 F.3d at 1079 (Thomas, C.J., concurring
in part and dissenting in part).

- 12 -

overlapped with the O’Bannon class------against the NCAA and eleven of its Division I
member conferences, seeking ‘‘to dismantle the NCAA’s entire compensation
framework.’’ GIA, 958 F.3d at 1247. The case was stayed until O’Bannon was resolved,
at which point this case resumed before the same district judge who had presided over

O’Bannon. After concluding on dispositive motions that O’Bannon was preclusive as to
step 1 of the rule of reason but not steps 2 or 3, id. at 1247-1248, the district court set
the case for a bench trial on those latter steps, see id. at 1248. The court then conducted
a ten-day bench trial, at the conclusion of which it held that defendants violated
antitrust law.
In particular, although the court ‘‘credit[ed] the importance to consumer demand
of maintaining a distinction between college sports and professional sports,’’ it held that
NCAA rules restricting student-athlete compensation are ‘‘procompetitive’’ ‘‘only’’ to
the extent they ‘‘prevent[] unlimited cash payments, unrelated to education, similar to
those observed in professional sports,’’ and that that effect ‘‘can be achieved through
less restrictive means’’ than current NCAA rules. In re NCAA Athletic Grant-in-Aid

Cap Antitrust Litigation, 375 F. Supp. 3d 1058, 1062, 1082 (N.D. Cal. 2019). Specifically,
the court approved ‘‘an alternative compensation scheme’’ under which the NCAA
‘‘would generally [be] prohibit[ed] … from limiting education-related benefits.’’ Id. at
1062. ‘‘The only education-related compensation that the NCAA could limit under this
alternative,’’ the court explained, would be academic or graduation awards or
incentives, provided in cash or cash-equivalent.’’ Id. That limit, however, ‘‘could not be
less than [the NCAA’s] caps on athletics participation awards,’’ id., which the court
calculated to be $5,600, id. at 1088, 1099.

- 13 -

The district court entered a permanent injunction, providing that:
The compensation and benefits related to education … that the NCAA
may not … limit … are the following: computers, science equipment,
musical instruments and other tangible items not included in the cost of
attendance calculation but nonetheless related to the pursuit of academic
studies; post-eligibility scholarships to complete undergraduate or
graduate degrees at any school; scholarships to attend vocational school;
tutoring; expenses related to studying abroad …; and paid post-eligibility
internships.
C.A. ER2-3; see also C.A. ER61. The injunction states that this list ‘‘may be amended’’
only ‘‘on motion of any party,’’ C.A. ER3------in other words, only with the court’s preapproval. The injunction permits the NCAA to ‘‘adopt … a definition of … ‘related to
education’’’ but requires the NCAA to ask the court to ‘‘incorporate that definition’’ into
the injunction. Id.
The NCAA and the conferences appealed, and plaintiffs cross-appealed to
challenge the district court’s refusal to invalidate all of the NCAA’s compensationrelated restrictions.
4.

On May 18, 2020, the Ninth Circuit substantially affirmed the district

court’s judgment. The court first held that, despite O’Bannon’s ruling that

student-athletes need not receive more than COA, the district court was free to
rule otherwise in this case. That was so, the Ninth Circuit reasoned, because
(1) rule-of-reason analysis is case-specific, and (2) some of the evidence at issue in
this case arose after the record in O’Bannon closed.
Next, the Ninth Circuit adhered to O’Bannon’s rejection of defendants’
contention (and other circuits’ holdings) that NCAA rules restricting student-athlete
compensation ‘‘are ‘valid as a matter of law’ under’’ Board of Regents, instead

- 14 -

subjecting those rules to detailed rule-of-reason analysis. GIA, 958 F.3d at 1246, 12571261. In particular, the court (ostensibly at step 2 of the rule-of-reason analysis),
invalidated defendants’ longstanding concept of amateurism, i.e., the concept recognized
in Board of Regents that student-athletes ‘‘must not be paid to play,’’ 468 U.S. at 102.
The court of appeals acknowledged that ‘‘maintaining a distinction between college and
professional sports’’ is procompetitive, GIA, 958 F.3d at 1257, but it declared that
‘‘[a]lthough both Board of Regents and O’Bannon … define amateurism to exclude
payment for athletic performance, neither purports to immortalize that definition as a
matter of law.’’ Id. at 1258. And in the court’s view, ‘‘[t]he record in this case …
reflect[ed] no such concrete procompetitive effect of limiting non-cash, educationrelated benefits. Instead, the record support[ed] a much narrower conception of
amateurism,’’ one ‘‘that still gives rise to procompetitive effects: Not paying studentathletes unlimited payments unrelated to education.’’ Id. In the court’s view, that is,
student-athletes will still be amateurs rather than professionals even if they are paid
huge sums of money------indeed, even unlimited payments related to education------so long
as they do not receive ‘‘unlimited payments unrelated to education.’’ Id.
Ostensibly turning to step 3, the court of appeals held that the district court’s
alternative regime------‘‘uncapping certain education-related benefits’’------would be
‘‘virtually as effective’’ in differentiating college from professional sports and thereby
‘‘preserv[ing] consumer demand.’’ GIA, 958 F.3d at 1260. The court also rejected
defendants’ challenges to the injunction, after adopting a narrowing gloss that the court
thought would ensure that the allowances the injunction required will not ‘‘become

- 15 -

vehicles for payments that are virtually indistinguishable from a professional’s salary.’’

Id. at 1261.
Finally, the Ninth Circuit rejected plaintiffs’ cross-appeal, which requested a
broadening of the injunction to enjoin all NCAA compensation limits. GIA, 958 F.3d at
1263-1264.
5.

Defendants moved the Ninth Circuit to stay issuance of the mandate

pending the filing of a certiorari petition. ECF #137, GIA, No. 19-15566 (9th Cir. July 6,
2020). The court denied that motion on August 4, 2020. Order (ECF #141), GIA.
6.

Under this Court’s miscellaneous order of March 19, 2020, which extended

the deadline for filing all certiorari petitions ‘‘to 150 days from the date of the lower
court judgment,’’ the deadline for filing a petition in this case is October 15, 2020. This
Court would have jurisdiction over defendants’ petition under 28 U.S.C. §1254(1).
ARGUMENT
‘‘To obtain a stay pending the filing and disposition of a petition for a writ of
certiorari, an applicant must show (1) a reasonable probability that four Justices will
consider the issue sufficiently meritorious to grant certiorari; (2) a fair prospect that a
majority of the Court will vote to reverse the judgment below; and (3) a likelihood that
irreparable harm will result from the denial of a stay.’’ Hollingsworth v. Perry, 558 U.S.
183, 190 (2010) (per curiam). ‘‘In close cases the Circuit Justice or the Court will balance
the equities and weigh the relative harms to the applicant and to the respondent.’’ Id.
Defendants intend to present to this Court the question whether the Ninth
Circuit erred in subjecting NCAA rules that restrict student-athlete compensation to
detailed rule-of-reason analysis and holding that the rules restricting student-athletes’

- 16 -

receipt of ‘‘education-related’’ compensation are unduly restrictive and therefore violate
antitrust law. With respect to that question, the standard for a stay is satisfied.
I.

THERE IS A REASONABLE PROBABILITY THAT THE COURT WILL GRANT
CERTIORARI
Three circumstances that commonly occasion this Court’s review are where the

lower court’s decision: (1) conflicts with a decision of this Court, (2) conflicts with a
decision of another court of appeals, or (3) resolves an important question of federal law.

See S. Ct. R. 10. The Ninth Circuit’s decision implicates all three circumstances.
A.

The Decision Below Conflicts With Decisions Of This Court And Other
Circuits

Certiorari is at least reasonably probable here because the decision below
departs from decisions of other circuits, and of this Court, in holding both that NCAA
rules restricting student-athlete compensation must be subjected to detailed rule-ofreason analysis (rather than evaluated at the motion-to-dismiss stage), and that those
rules are not entirely valid under the antitrust laws. Certiorari is also at least
reasonably probable here because decisions of this Court and other circuits------unlike the
decision below------not only accept defendants’ no-pay conception of amateurism as a
justification for NCAA compensation limits, but also reject any requirement that an
antitrust defendant prove that a challenged restraint is the least-restrictive means of
accomplishing the procompetitive objective.
1.a.

In Board of Regents, this Court addressed an antitrust challenge to an

NCAA plan that limited how many football games schools could license for telecast. See
468 U.S. at 88, 91-94. The Court recognized that although horizontal restraints are
‘‘often … held to be unreasonable as a matter of law,’’ i.e., ‘‘illegal per se,’’ id. at 99-100,

- 17 -

the NCAA’s ‘‘particular brand’’ of sports, like other ‘‘league sports,’’ ‘‘can only be carried
out jointly,’’ id. at 101. And such joint activity necessarily requires a ‘‘myriad of rules
…, all [of which] must be agreed upon, and all [of which] restrain the manner in which
institutions compete.’’ Id. Hence, because ‘‘horizontal restraints on competition are
essential if the [NCAA’s] product is to be available at all,’’ the Court held that the
NCAA’s restraints should not be deemed illegal per se, but instead should be evaluated
under the rule of reason. Id. at 100-101.
The Court then examined different types of NCAA rules, explaining that there
must be agreement on ‘‘rules affecting such matters as the size of the field’’ and ‘‘the
number of players on a team.’’ Board of Regents, 468 U.S. at 101. But equally essential,
the Court continued, are the NCAA’s ‘‘standards of amateurism’’ and ‘‘standards for
academic eligibility,’’ id. at 88, such as rules that ‘‘athletes must not be paid’’ and ‘‘must
be required to attend class,’’ id. at 102. These rules, which must be established ‘‘by
mutual agreement,’’ are designed ‘‘to preserve the character and quality of’’
intercollegiate athletics. Id. at 102. Accordingly, the Court expounded, they
‘‘differentiate[] college’’ sports from professional sports (including ‘‘minor leagues’’) and
‘‘enable a product to be marketed that might otherwise be unavailable,’’ thus ‘‘widening
consumer choice.’’ Id. at 101-102. Because most NCAA rules are essential to the
maintenance of college sports as a distinct enterprise, the Court declared------consistent
with its precedent regarding other joint ventures------that it is ‘‘reasonable to assume that
most … NCAA [rules] are justifiable means of fostering competition among amateur
athletic teams, and therefore procompetitive.’’ Id. at 117; see also Broadcast Music, Inc.
v. CBS, Inc., 441 U.S. 1, 23 (1979) (‘‘Joint ventures and other cooperative arrangements

- 18 -

are … not usually unlawful … where the agreement … is necessary to market the
product at all.’’). Indeed, the Court added, ‘‘the preservation of the student-athlete in
higher education … is entirely consistent with the goals of the Sherman Act.’’ Board of

Regents, 468 U.S. at 120.
The Court, however, distinguished rules that preserve the NCAA’s ‘‘particular
brand of’’ sports, i.e., amateur college sports, 468 U.S. at 101, from the television plan at
issue in the case. Because, the Court held, the plan was not ‘‘based on a desire to
maintain the integrity of college [sports] as a distinct and attractive product,’’ it did ‘‘not
… fit into the same mold as do rules defining the conditions of the contest’’ or ‘‘the
eligibility of participants.’’ Board of Regents, 468 U.S. at 116-117. Consequently, the
Court subjected the television plan to a detailed rule-of-reason analysis, which yielded
the conclusion that the plan was an unreasonable restraint of trade. Id. at 104-117.
In concluding its opinion, this Court stressed that ‘‘[t]he NCAA plays a critical
role in the maintenance of a revered tradition of amateurism in college sports’’ and that
‘‘[t]here can be no question but that [the NCAA] needs ample latitude to play that role.’’

Board of Regents, 468 U.S. at 120. And whereas the television plan at issue was invalid
because it merely ‘‘restrict[ed] output,’’ that latitude would be afforded by upholding
NCAA eligibility rules that preserve the amateur status of student-athletes. Id. The
Court subsequently reiterated this point, explaining that in this context, ‘‘the Rule of
Reason may not require a detailed analysis; it ‘can sometimes be applied in the
twinkling of an eye.’’’ American Needle, Inc. v. NFL, 560 U.S. 183, 203 (2010) (quoting

Board of Regents, 468 U.S. at 109 n.39); see also Race Tires America, Inc. v. Hoosier

- 19 -

Racing Tire Corp., 614 F.3d 57, 80 (3d Cir. 2010) (‘‘courts have generally accorded sports
organizations a certain degree of deference and freedom to act’’).
b.

The Seventh Circuit has read the foregoing precedent to mean that in an

antitrust challenge to an NCAA eligibility rule, the only question is ‘‘whether a rule is,
on its face, supportive of the ‘no payment’ … model[].’’ Agnew, 683 F.3d at 343 n.7
(citing Board of Regents). If so, the court held, the rule (including rules that ‘‘define
what it means to be an amateur’’) should be upheld without further rule-of-reason
analysis, i.e., ‘‘at the motion-to-dismiss stage.’’ Id. at 341, 343 (citing American Needle).
Applying this framework, the Seventh Circuit------subsequent to O’Bannon------affirmed the
dismissal of a claim that, because the NCAA allowed certain exceptions and waivers to
an NCAA eligibility rule, that rule was ‘‘unnecessary to the survival of college football.’’

Deppe, 893 F.3d at 503. ‘‘This argument is a nonstarter,’’ the court explained, because
‘‘scrutinizing the NCAA’s bylaws as [plaintiff] suggests conflicts with the … admonition
in Board of Regents that the NCAA needs ‘ample latitude’ to preserve the product of
college sports.’’ Id. In the Seventh Circuit, therefore, ‘‘a more searching Rule of
Reason analysis’’ of an NCAA rule is permissible only if the rule is ‘‘not directly related
to the separation of amateur athletics from pay-for-play athletics.’’ Agnew, 683 F.3d at
343, 345.
Two other circuits have taken the same approach. Based on Board of Regents,
the Fifth Circuit had ‘‘little difficulty’’ rejecting------as a matter of law------a challenge to
NCAA eligibility rules. McCormack, 845 F.2d at 1343-1345 (5th Cir. 1988). And the
Third Circuit, likewise based on Board of Regents, held that an NCAA eligibility rule

- 20 -

‘‘so clearly survive[d] a rule of reason analysis’’ that the court did ‘‘not hesitate’’ to
uphold it at the motion-to-dismiss stage. Smith, 139 F.3d at 186-187.
c.

The Ninth Circuit has rejected its sister circuits’ approach. In O’Bannon,

the court ‘‘disagree[d]’’ with the NCAA’s contention that ‘‘any Section 1 challenge to its
amateurism rules must fail as a matter of law [under] Board of Regents.’’ 802 F.3d at
1063. The court dismissed Board of Regents’ lengthy discussion of amateurism as
‘‘dicta,’’ stating that this Court ‘‘discussed the NCAA’s amateurism rules’’ simply to
explain why NCAA rules, as horizontal restraints, ‘‘should be analyzed under the Rule
of Reason, rather than held to be illegal per se.’’ Id. The court of appeals also brushed
aside the Seventh Circuit’s reading of Board of Regents in Agnew as ‘‘unpersuasive,’’
‘‘dubious,’’ and likewise ‘‘dicta.’’ Id. at 1064.
Here, the Ninth Circuit adhered to O’Bannon’s departure from the Third, Fifth,
and Seventh Circuits. After recounting that O’Bannon ‘‘rejected the NCAA’s threshold
argument that its amateurism rules, including those governing compensation, are ‘valid
as a matter of law’ under’’ Board of Regents, GIA, 958 F.3d at 1246, the court subjected
the amateurism rules challenged here to extensive rule-of-reason analysis, see id. at
1257-1261. Indeed, the court sought to reinforce and amplify O’Bannon’s conclusion that
NCAA amateurism rules are subject to detailed rule-of-reason analysis: Relying on a
different portion of Board of Regents, the court of appeals asserted that ‘‘the NCAA
bears a ‘heavy burden’ of ‘competitively justify[ing]’ its undisputed ‘deviation from the
operations of a free market.’’’ Id. at 1257 (alteration in original) (quoting Board of

Regents, 468 U.S. at 116-117). The court thus failed to recognize what other circuits
have, namely, this Court’s clear explanation in Board of Regents that that burden is

- 21 -

satisfied if the challenged rules ‘‘fit into the same mold as do rules defining … the
eligibility of participants,’’ including rules ‘‘based on a desire to maintain the integrity of
college [sports] as a distinct and attractive product.’’ 468 U.S. at 116-117.
Based on its rejection of the NCAA’s (and other circuits’) reading of Board of

Regents, the Ninth Circuit subjected the entire body of NCAA eligibility rules relating
to student-athlete compensation to detailed rule-of-reason analysis based on the trial
record, which included ‘‘demand analyses, survey evidence,’’ and both lay and expert
testimony. GIA, 958 F.3d at 1257. The court then cast aside the NCAA’s traditional
conception of amateurism (i.e., that amateurs are not paid to play) because, the court
said, ‘‘the record supports a much narrower conception of amateurism …: Not paying
student-athletes unlimited payments unrelated to education.’’ Id. at 1258 (quotation
marks omitted). Continuing its detailed, record-based scrutiny, the court invalidated
NCAA ‘‘caps on non-cash, education-related benefits’’ because it determined that an
alternative regime------in which ‘‘education-related benefits’’ are ‘‘uncapp[ed]’’ and ‘‘the
cap on academic and graduation awards and incentives [is tied] to the cap on aggregate
athletic participation awards’’------‘‘would be virtually as effective’’ in ‘‘preserv[ing]
consumer demand.’’ Id. at 1260-1263. There is no way to reconcile that result------or the
underlying reasoning------either with Board of Regents or with the circuit decisions
discussed above.
2.

Although the foregoing suffices to establish that defendants’ petition for

certiorari will present a question on which review is reasonably probable, the decision
below also conflicts with this Court’s and other circuits’ precedent in another way: by
engrafting a ‘‘least-restrictive-alternative’’ requirement onto the rule of reason.

- 22 -

Although the Ninth Circuit did not deny that defendants’ no-pay conception of
amateurism differentiates professional and college sports, it reasoned that the
‘‘narrower conception of amateurism’’ it adopted------‘‘[n]ot paying student-athletes
‘unlimited payments unrelated to education’’’------‘‘still gives rise to procompetitive
effects.’’ GIA, 958 F.3d at 1258 (emphasis added). The court, in other words,
acknowledged that defendants’ conception already has such effects. (Indeed, the
challenged rules serve even the Ninth Circuit’s narrower conception of amateurism,
because plainly they prevent student-athletes from receiving unlimited payments
unrelated to education.) But the problem, in the court’s view, was that defendants
failed to prove that the rules’ procompetitive effects could not be achieved if those rules
were curtailed to reflect the court’s ‘‘narrower conception of amateurism.’’ The court
thus required defendants to prove that ‘‘each type of challenged rule’’ is strictly
necessary to achieve the procompetitive benefit of differentiating college sports from
professional sports, id. at 1258-1259; see also, e.g., id. at 1261 (‘‘the NCAA presented no
evidence that demand will suffer if schools are free to reimburse education-related
expenses of inherently limited value’’).
This Court and others have taken a different approach. Under the rule of reason,
this Court has explained, a restraint need only be ‘‘reasonably necessary,’’ United

States v. Arnold, Schwinn & Co., 388 U.S. 365, 380 (1967) (subsequent history omitted),
or ‘‘fairly necessary,’’ Dr. Miles Medical Co. v. John D. Park & Sons Co., 220 U.S. 373,
406 (1911) (subsequent history omitted); accord NFL v. North American Soccer

League, 459 U.S. 1074, 1079 (1982). Indeed, this Court and other circuits have
specifically rejected the view that antitrust law requires a restraint to be ‘‘the least …

- 23 -

restrictive provision that [the defendant] could have used.’’ Continental T.V., Inc. v.

GTE Sylvania Inc., 433 U.S. 36, 58 n.29 (1977); see also, e.g., Bruce Drug, Inc. v.
Hollister, Inc., 688 F.2d 853, 860 (1st Cir. 1982); American Motor Inns, Inc. v. Holiday
Inns, Inc., 521 F.2d 1230, 1248-1249 (3d Cir. 1975); McCormack, 845 F.2d at 1340, 1345;
Rothery Storage & Van Co. v. Atlas Van Lines, Inc., 792 F.2d 210, 227 (D.C. Cir. 1986).
B.

The Question To Be Presented Is Important

The issues just discussed are enormously important, which confirms that it is
reasonably probable this Court will grant review.
1.

NCAA sports play a central role in American life, involving hundreds of

thousands of participants and millions of viewers annually. See supra p.6. And the
‘‘revered tradition of amateurism,’’ Board of Regents, 468 U.S. at 120, is an essential
feature of NCAA sports. But the NCAA, Board of Regents admonished, ‘‘needs ample
latitude’’ to play its ‘‘critical role in the maintenance of’’ this ‘‘revered tradition.’’ Id.
That latitude includes leeway for the NCAA and its members to decide what rules will
preserve and promote amateurism. As the Third Circuit put it, ‘‘sports-related
organizations should have the right to determine for themselves the set of rules that
they believe best advance their respective sport (and therefore their own business
interests).’’ Race Tires, 614 F.3d at 83. The decision below denies defendants that
latitude, subjecting the NCAA’s compensation rules------rules that define ‘‘the character
and quality’’ of college sports, Board of Regents, 468 U.S. at 102------to exacting scrutiny
and requiring defendants to prove that the rules are the least restrictive way to
maintain the distinction between college and professional sports. The decision thereby
leaves the NCAA with little if any flexibility about how best to ensure the preservation

- 24 -

of one of the core characteristics of a prominent institution in modern American society.
Whether that deprivation was correct is an important question of federal law.
2.

The decision below is also important because it will almost certainly

engender perpetual litigation over the NCAA’s amateurism rules. Stressing ‘‘the
inherently fact-dependent nature of a Rule of Reason analysis,’’ GIA, 958 F.3d at 1254,
the Ninth Circuit ruled that the conduct deemed lawful in O’Bannon could be held

unlawful here, and that O’Bannon thus does not limit defendants’ exposure to antitrust
liability as a matter of stare decisis. Nor, the court held, does O’Bannon limit
defendants’ antitrust exposure as a matter of res judicata because plaintiffs’ ‘‘claim
arose from events that occurred after the O’Bannon record closed.’’ Id. at 1255
(quotation marks omitted).
Under the decision below, then, virtually any change in the NCAA’s
compensation rules (whether that change makes the rules more restrictive or less
restrictive), or any other change to the factual landscape, opens the door to a new
antitrust lawsuit------including detailed rule-of-reason analysis, likely requiring a full trial.
In fact, a rule change or other factual development might not even be necessary; the
Ninth Circuit here saw no problem with defendants’ prediction of ‘‘future plaintiffs
pursuing essentially the same claim again and again’’ against defendants, 958 F.3d at
1256 n.13. Not surprisingly, that prediction has already been validated: Less than a
month after the decision below, a new lawsuit raising claims very similar to those in

O’Bannon was filed in the same district as both O’Bannon and this case, see Compl.
(ECF #1), House v. NCAA, No. 20-cv-3919 (N.D. Cal. June 15, 2020)------and promptly

- 25 -

deemed a related case to this one by the district judge who presided over both this case
and O’Bannon, Order (ECF #15), House (June 23, 2020).
In short, the Ninth Circuit’s departures from this Court’s and other circuits’
precedent create a completely new regime for intercollegiate athletics. The NCAA and
its members will no longer have the flexibility to adopt what in their judgment are
appropriate and nationally uniform eligibility rules to preserve the traditional amateur
character of college sports. Instead, they will either have to freeze their rules in place
forever, to the detriment of student-athletes who benefit from rule changes that
address evolving circumstances, or face an unending string of litigation that will not
only transfer substantial control over intercollegiate athletics away from those with
experience and expertise in the field, but also reduce the funds available to provide
opportunities and services to student-athletes. Particularly given the role that NCAA
sports play in America, these revolutionary changes to the way that NCAAadministered athletics have existed and operated for decades (and other far-reaching
consequences) leave no doubt about the importance of the Ninth Circuit’s decision and
hence that certiorari is reasonably probable.
C.

This Court’s Denial Of Certiorari In O’Bannon Does Not Show That
Review Here Is Not Reasonably Probable

In opposing defendants’ request to the Ninth Circuit to stay the issuance of its
mandate, respondents principally argued that certiorari is not reasonably probable here
because this Court denied the NCAA’s petition for certiorari in O’Bannon. ECF #139-1
at 3-9, GIA (July 16, 2020). That argument lacks merit.

- 26 -

Although the NCAA’s petition in O’Bannon raised issues similar to those
discussed above, this case is meaningfully different from O’Bannon. To begin with, the
immediate stakes in O’Bannon may have seemed relatively low at the time because rule
changes the NCAA put in place before that appeal even began, see supra n.2,
implemented the only part of the district court’s injunction the Ninth Circuit upheld.

See GIA, 958 F.3d at 1244. In contrast, the decision below------which, unlike O’Bannon,
requires the NCAA to allow schools to make payments to student-athletes beyond
legitimate educational expenses------will have significant consequences for college sports.
Indeed, as explained in Part III, the injunction the Ninth Circuit affirmed will inflict
irreparable harm on an important American institution.
The Ninth Circuit asserted in O’Bannon, moreover, both that its decision did not
conflict with either Third Circuit or Fifth Circuit precedent, and that the Seventh
Circuit language in Agnew that the NCAA relied on was ‘‘dicta.’’ 802 F.3d at 1064.
While those assertions were incorrect, they may have created uncertainty about
whether there was an actual circuit conflict. If so, that uncertainty has been eliminated
by the Seventh Circuit’s square post-O’Bannon holding in Deppe, see 893 F.3d at 501.
Additionally, this Court may have denied review in O’Bannon partly or wholly to
see how that decision would be interpreted and applied, including whether it would
permit or deter continual antitrust cases challenging NCAA eligibility rules. The
answer is now clear: In the Ninth Circuit (where all such future cases will surely be
filed), ‘‘plaintiffs [can] pursu[e] essentially the same claim again and again.’’ GIA, 958
F.3d at 1256 n.13 (quotation marks omitted).

- 27 -

Finally, at the time of O’Bannon the Court had only eight members, raising the
possibility that at the merits stage the Court would be equally divided, preventing
resolution of the questions presented. That issue is of course not present here.
Respondents’ opposition below to a stay of the issuance to the mandate cited
decades-old, single-Justice opinions that cited a prior denial of certiorari as grounds for
concluding that a later certiorari petition was unlikely to be granted. See Packwood v.

Senate Select Committee on Ethics, 510 U.S. 1319, 1321 (1994) (Rehnquist, C.J., in
chambers); Conforte v. Commissioner, 459 U.S. 1309, 1312 (1983) (Rehnquist, J., in
chambers); South Park Independent School District v. United States, 453 U.S. 1301,
1303-1304 (1981) (Powell, J., in chambers). But in none of these instances had the prior
denial been made by an eight-member Court. In any event, whatever the Court’s
practice at the time of the decisions respondents cited, the Court today regularly takes
up questions on which it has previously denied review. For example, in Dutra Group v.

Batterton, 139 S. Ct. 2275 (2019), the Court granted review (and reversed) after
denying certiorari on the same issue in the prior Term, see id. at 2282-2283; American

Triumph LLC v. Tabingo, 138 S. Ct. 648 (2018) (denying certiorari). Similarly, in
Murphy v. NCAA, 138 S. Ct. 1461 (2018), the Court granted review (and reversed) after
denying certiorari on the same issue three Terms before, see id. at 1471-1473. And in

Hurst v. Florida, 136 S. Ct. 616 (2016), the Court likewise granted review (and
reversed) after denying certiorari on the same issue two Terms earlier. See Br. in Opp.
16 & n.3, Hurst, No. 14-7505 (U.S. Jan. 12, 2015). Other examples abound. See, e.g., Br.
in Opp. 35, Caperton v. A.T. Massey Coal Co., No. 08-22 (U.S. Sept. 3, 2008)
(unsuccessfully urging denial of certiorari based on recent prior denials). In short, the

- 28 -

denial of review in O’Bannon provides no basis to conclude that certiorari on the
important questions of federal law discussed above------questions that, as explained, have
divided the circuits------is not even reasonably probable.4
II.

THERE IS A FAIR PROSPECT THAT THIS COURT WILL REVERSE THE NINTH
CIRCUIT’S DECISION
The foregoing discussion of Board of Regents and other relevant precedent of

this Court shows that there is------at a bare minimum------a fair prospect that the Court will
reverse the Ninth Circuit’s judgment. This prediction is confirmed by the fact that the
decision below conflicts, as also discussed, with the great weight of circuit precedent.
But even if this Court had not already made clear that NCAA rules designed to prevent
student-athletes from being paid for their athletic play are valid restraints of trade,
there would still be at least a fair prospect that this Court would reach that conclusion
here and accordingly reverse the decision below.
‘‘Widen[ing] consumer choice’’ is ‘‘procompetitive.’’ Board of Regents, 468 U.S. at
102. And the amateur nature of NCAA sports indisputably distinguishes them from
professional sports. Even the Ninth Circuit agreed that ‘‘maintaining a distinction
between college and professional sports’’ is procompetitive and that adhering to some
concept of amateurism serves that goal. GIA, 958 F.3d at 1257-1258. Furthermore, it is
evident from the face of the challenged NCAA rules that they help preserve the
differentiation between amateur college sports and professional sports, by preventing

4

Respondents’ stay opposition below also argued that review is unlikely because the
decision below is fact-intensive. ECF #139-1 at 10-11, GIA. But as the discussion in
Part I makes clear, defendants’ petition will challenge the Ninth Circuit’s legal rulings.

- 29 -

student-athletes from being paid to play. No further analysis should be needed to
sustain the challenged rules under the rule of reason.5
The Ninth Circuit, however, deemed the NCAA’s concept of amateurism overly
restrictive and thus replaced it with ‘‘a much narrower conception of amateurism …:
Not paying student-athletes unlimited payments unrelated to education.’’ GIA, 958
F.3d at 1258 (quotation marks omitted). The court also upheld a requirement that
schools be allowed to pay every student-athlete ‘‘awards’’ that, while ostensibly
‘‘education-related,’’ require no meaningful threshold of actual achievement, and thus
amount to payments for participation in college athletics. Such tinkering with the core
definition of the character of defendants’ product is beyond the proper power of a
federal antitrust court. Antitrust courts, this Court has explained, are ‘‘ill-suited’’ to
‘‘act as central planners,’’ Verizon Communications Inc. v. Law Offices of Curtis V.

Trinko, LLP, 540 U.S. 398, 408 (2004), and hence should not ‘‘be placed in the position of
second-guessing business judgments,’’ rather than leaving such judgments to those with
experience and expertise in the relevant fields, American Motor Inns, 521 F.2d at 1249.
Likewise indefensible is the Ninth Circuit’s adoption of a least-restrictivealternative (i.e., strict-necessity) standard. As the Third Circuit has explained, a ‘‘rigid
‘no less restrictive alternative’ test’’ ‘‘would place an undue burden on the ordinary

5

If more were needed (or were appropriate to consider), the record here contains ample
support, including a survey finding that about one-third of college-sports fans watch
college sports because they ‘‘like the fact that college players are amateurs and/or are
not paid,’’ C.A. ER233-234, 237-238, 240, and testimony from witnesses with decades of
experience in college sports and sports broadcasting that NCAA sports is ‘‘a unique
property that … resonated with fans because it wasn’t professionalized at all,’’ C.A.
ER215-216; see also C.A. ER172, 178-182, 185-197, 199, 201-207, 216-223.

- 30 -

conduct of business,’’ given that ‘‘the imaginations of lawyers’’ could readily (if not
always) ‘‘conjure up … a somewhat lesser restriction of trade.’’ American Motor Inns,
521 F.2d at 1249. Hence, ‘‘courts should [not] calibrate degrees of reasonable necessity,’’
such that the ‘‘lawfulness of conduct turns upon judgments of degrees of efficiency.’’

Rothery, 792 F.2d at 227-228; see also Hovenkamp, Antitrust Balancing, 12 N.Y.U. J.L.
& Bus. 369, 377 (2016) (‘‘‘Metering’ small deviations [in amateurism] is not an
appropriate antitrust function….’’).
The wisdom of this Court’s and other circuits’ more restrained approach to
scrutinizing and second-guessing the business judgments of joint ventures and other
enterprises is confirmed by the Ninth Circuit’s thorough misapprehension of the record.
Contrary to that court’s view, the record contained no evidence that the traditional
concept of amateurism is overly restrictive or that the court’s narrower conception
would differentiate college from professional sports ‘‘just as well as the challenged rules
do,’’ GIA, 958 F.3d at 1260. The Ninth Circuit’s evaluation of the evidence rested on the
court’s derisive mischaracterization of the NCAA’s concept of amateurism as allowing
‘‘Not One Penny’’ over COA. Id. at 1258. That ignored the fact that (as explicated in
the Statement) defendants’ longstanding conception of amateurism permits schools to
cover all legitimate educational expenses and allows student-athletes to receive modest
recognition awards, even if those expenses and awards exceed the federally defined
COA.
Moreover, the crux of the Ninth Circuit’s analysis was the premise------first
articulated by the district court------that the line of demarcation between college and
professional sports is not that professionals are paid to play, but rather that they are

- 31 -

paid ‘‘unlimited payments unrelated to education.’’ GIA, 958 F.3d at 1258. That core
premise is demonstrably false. Professional athletes do not receive ‘‘unlimited
payments.’’ To the contrary, the National Basketball Association, the National Football
League, and Major League Baseball all have salary caps (or the practical equivalent).

E.g., C.A. ER200; Diamond, How MLB’s Luxury Tax Has Put a Deep Freeze on
Spending, Wall St. J. (Jan. 11, 2019), https://tinyurl.com/y5g3wtgk. And most minor
league players------who this Court recognized in Board of Regents are still professionals,

see 468 U.S. at 102------are typically paid quite little.
The Ninth Circuit sought to salvage this glaring central error with the assertion
that ‘‘[i]n context’’------precisely what context the court of appeals did not specify------‘‘the
district court was using the term ‘unlimited pay’ as shorthand for … cash payments

unrelated to education and akin to professional salaries.’’ 958 F.3d at 1260 n.16. That is
unavailing. To begin with, defining the line between college and professional sports in
terms of what is ‘‘akin to professional salaries,’’ id., is entirely tautological. And by its
terms the injunction is not limited to non-cash payments; to the contrary, it explicitly
permits at least $5,600 per year in cash payments for simply remaining academically
eligible, and it prohibits the NCAA from restricting ‘‘paid post-eligibility internships.’’
C.A. ER3. That leaves ‘‘related to education,’’ id., a term so capacious that it does little
if anything to provide meaningful differentiation. As just noted, for example, the
injunction requires the NCAA to permit all student-athletes to receive unlimited ‘‘paid
post-eligibility internships.’’ Id. There is simply no sound basis to conclude that college
athletes who are paid vast sums of money will remain meaningfully differentiated from
professional athletes simply because they will participate in a post-eligibility internship.

- 32 -

Particularly given that the paid internships will be used specifically as a recruitment
and retention tool for student-athletes (with the highest paying internships no doubt
going to the highest-performing or most-desired athletes), consumers, student-athletes,
and everyone else will instead recognize the reality: that the student-athletes, just like
professional athletes, are being paid for their play, with the internship the poorly
disguised vehicle for funneling those for-play payments. In short, the Ninth Circuit’s
decision will turn student-athletes into professionals rather than preserving their status
as amateurs, eradicating the procompetitive differentiation that this Court and others
have recognized as the hallmark of NCAA sports.
III.

DEFENDANTS WILL LIKELY SUFFER IRREPARABLE HARM ABSENT A STAY
Absent a stay, the decision below will likely cause lasting irreparable harm,

transforming student-athletes into what O’Bannon described as ‘‘poorly-paid
professional collegiate athletes,’’ 802 F.3d at 1076, and thereby eliminating the
procompetitive distinction between NCAA sports and professional sports. Consumers
will likely come to view NCAA athletics as another form of minor league sports, which
are considerably less popular. See Board of Regents, 468 U.S. at 102; Gallup, In Depth:

Topics A to Z Sports, https://news.gallup.com/poll/4735/sports.aspx. Schools that want
to remain competitive, meanwhile, will have to spend significant (and unrecoverable)
amounts to attract or retain student-athletes. There would also be serious noneconomic consequences, such as the severe altering of competition, with schools that
choose to offer all the benefits the injunction allows vastly outperforming schools that
instead choose to adhere to the traditional amateur model. Finally, there is little doubt
that permitting such payments will result in future claims for treble damages against

- 33 -

the NCAA and its members by student-athletes who were not able to receive the
payments in the past------the same kind of claim that resulted in a settlement of over $200
million to resolve the damages claims in this action, which were based on the additional
COA payments that were permitted by the decision in O’Bannon.
The effects of the decision below, moreover, will not be limited to the two sports
from which the plaintiff classes here are drawn (football and basketball). Schools that
promise student-athletes additional payments under the decision will have to decide
where to get that money. Some will get it by cutting funding for other aspects of their
football and basketball programs, such as the number of scholarships, the size or quality
of their coaching staffs and facilities, or other support, all of which contribute to their
student-athletes’ overall experience and success not only in athletics but also in the
classroom and beyond. Other schools will instead cut funding for other sports programs
or eliminate teams altogether. Members of those teams could thereby lose their
scholarships, perhaps denying them the opportunity to compete in Division I sports or
even the opportunity to attend college.
The harms just discussed could not easily be undone if the decision were later
reversed. Even if just one class is recruited with promises of large payments, schools
will not be able to rescind their promises or recover any resulting payments, those
student-athletes could remain on NCAA teams for years, causing the injunction’s
effects to linger long after vacatur. Indeed, consumers’ perception would likely never
revert. The irreparable harm, moreover, would begin to be felt as soon as the
injunction takes effect, because schools could then immediately begin making promises
to recruit prospective student-athletes or to entice existing student-athletes to remain

- 34 -

(or transfer in from another school). These developments will unquestionably alter
consumers’ perception of NCAA sports------again, likely irreversibly.
IV.

THE BALANCE OF EQUITIES FAVOR A STAY
The foregoing harms far outweigh any harm a stay might cause (by preventing

current student-athletes from receiving the benefits allowed by the decision below
during the pendency of this appeal). As explained, the decision will fundamentally alter
the traditional character and competitive integrity of college sports------an endeavor in
which hundreds of thousands of people participate annually and which millions of people
enjoy watching. Both defendants and the public have a strong interest in avoiding such
harms.
It is hardly clear, moreover, that the decision below is even in student-athletes’
best interests. Faced with promises of large payments, some student-athletes will
select a school------perhaps the most consequential decision of their life to that point-----based not on how they would fit into a school’s academic, athletic, and social
communities, but based simply on how much money they will be paid, which will
undoubtedly diminish the college experience (and post-college prospects) for some such
student-athletes. Not all class members can be assumed to appreciate the full
implications of a lawsuit formulated and pressed by class counsel. And again, the
decision may also deprive student-athletes who are not members of the plaintiff class of
athletic and academic opportunities.
In opposing a stay below, plaintiffs asserted that defendants’ true concern about
the decision below is that it will drive up their costs. ECF #139-1 at 16, GIA. That is
false. Defendants’ commitment to amateurism as a core value has been clear and

- 35 -

constant. The fact that cost is one of many considerations in the NCAA’s legislative
process does not show otherwise, and certainly does not reveal the rules to be naked
restraints of trade. See Law, 134 F.3d at 1023 (‘‘[r]educing costs … without more’’ is not
a procompetitive justification (emphasis added)). Indeed, if defendants’ goal were
merely to control costs, their compensation limits would apply only to payments by
member institutions, not to payments from any source.
V.

IF THE NINTH CIRCUIT’S MANDATE ISSUES, THIS COURT SHOULD STAY THE
DISTRICT COURT’S INJUNCTION PENDING THE FILING AND DISPOSITION OF
DEFENDANTS’ PETITION FOR CERTIORARI
In the event the court of appeals’ mandate issues before this Court disposes of

this application, defendants request------for all the reasons given above------that the Court
stay the district court’s injunction pending the filing and disposition of defendants’
petition for certiorari.
VI.

THE COURT SHOULD GRANT AN ADMINISTRATIVE STAY WHILE IT CONSIDERS
THIS APPLICATION
Because of the irreparable harms that the decision below will begin to cause

immediately upon taking effect, defendants respectfully request that this Court grant
an administrative stay of the issuance of the Ninth Circuit’s mandate while this Court
considers this application. See Hollingsworth v. Perry, 558 U.S. 1107 (2010). If the
court of appeals’ mandate issues while this application is pending, defendants similarly
request that the Court grant an administrative stay to prevent the injunction from
taking effect pending disposition of the application.

- 36 -

CORPORATE DISCLOSURE STATEMENT
The National Collegiate Athletic Association is an unincorporated, non-profit
membership association composed of over 1,200 member schools and conferences. It has
no corporate parent, and no publicly held corporation owns 10 percent or more of its
stock.
The American Athletic Conference is a D.C. not-for-profit corporation
headquartered in Irving, Texas. It has no corporate parent, and no publicly held
corporation owns 10 percent or more of its stock.
The Atlantic Coast Conference is a North Carolina not-for-profit unincorporated
association headquartered in Greensboro, North Carolina. It has no corporate parent,
and no publicly held corporation owns 10 percent or more of its stock.
The Big Ten Conference, Inc. is a Delaware not-for-profit corporation with its
principal place of business in Rosemont, Illinois. It has no corporate parent, and no
publicly held corporation owns 10 percent or more of its stock.
The Big 12 Conference, Inc. is a Delaware not-for-profit corporation with its
principal place of business in Irving, Texas. It has no corporate parent, and no publicly
held corporation owns 10 percent or more of its stock.
Conference USA is an Illinois not-for-profit corporation with its principal place of
business in Dallas, Texas. It has no parent corporation, and no publicly held corporation
owns 10 percent or more of its stock.
The Mid-American Athletic Conference, Inc. is an Ohio not-for-profit corporation
headquartered in Cleveland, Ohio. It has no corporate parent, and no publicly held
corporation owns 10 percent or more of its stock.

C-1

CERTIFICATE OF SERVICE
I, Seth P. Waxman, a member of the bar of this Court, certify that on this 5th day
of August, 2020, I caused all parties requiring service in this matter to be served with a
copy of the foregoing by email and U.S. first class mail to the addresses below:

STEVEN W. BERMAN
CRAIG R. SPIEGEL
EMILEE N. SISCO
HAGENS BERMAN SOBOL SHAPIRO LLP
1301 Second Avenue, Suite 2000
Seattle, WA 98101
(206) 623-7292
steve@hbsslaw.com
craigs@hbsslaw.com
emilees@hbsslaw.com

JEFFREY L. KESSLER
DAVID G. FEHER
DAVID GREENSPAN
WINSTON & STRAWN LLP
200 Park Avenue
New York, NY 10166-4193
(212) 294-6700
jkessler@winston.com
dfeher@winston.com
dgreenspan@winston.com

ROBERT B. CAREY
HAGENS BERMAN SOBOL SHAPIRO LLP
11 West Jefferson Street, Suite 1000
Phoenix, AZ 85003
(602) 840-5900
rob@hbsslaw.com@hbsslaw.com

LINDA T. COBERLY
WINSTON & STRAWN LLP
35 W. Wacker Drive
Chicago, IL 60601
(312) 558-5600
lcoberly@winston.com

BRUCE L. SIMON
BENJAMIN E. SHIFTAN
PEARSON, SIMON & WARSHAW LLP
350 Sansome Street, Suite 680
San Francisco, CA 94104
(415) 433-9000
bsimon@pswlaw.com
bshiftan@pswlaw.com

JEANIFER E. PARSIGIAN
WINSTON & STRAWN LLP
101 California Street, 35th Floor
San Francisco, CA 94111
(415) 591-1000
jparsigian@winston.com

Class Counsel for the Consolidated
Action Plaintiffs

1

Class Counsel for the Consolidated
Action Plaintiffs

